Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




   TEMPORARY ASSISTANCE
     FOR NEEDY FAMILIES
Improving the Effectiveness and Efficiency
           of Client Sanctions




                     JUNE GIBBS BROWN
                      Inspector General

                          JULY 1999
                        OEI-09-98-00290
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco regional office prepared this report under the direction of Kaye D. Kidwell,
Regional Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General. Principal
OEI staff included:

REGION IX                                                        HEADQUARTERS

Steven Zerebecki, Lead Analyst                                   Linda Hall, Program Specialist
Scott Hutchison, Program Analyst                                 Alan Levine, Program Specialist
Lori Stickel, Program Analyst




     To obtain copies of this report, please call the San Francisco Regional Office at (415)437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                        EXECUTIVE                      SUMMARY

PURPOSE

         To describe how States administer client sanctions under the Temporary Assistance for
         Needy Families (TANF) program.


BACKGROUND

         In 1996, Congress significantly overhauled the welfare system with the passage of the

         Personal Responsibility and Work Opportunity Reconciliation Act (PRWORA, 

         P.L. 104-193), eliminating Aid to Families with Dependent Children (AFDC). Temporary

         Assistance for Needy Families (TANF) replaced AFDC with State block grants, giving

         States more authority to design programs that move clients from welfare to self-sustaining

         employment. Except where expressly provided under PRWORA, the Federal Government

         may not prescribe State spending on TANF.


         The TANF program grants cash assistance on a time-limited basis to needy families, but

         requires States to implement more stringent work requirements than under AFDC. The

         TANF law encourages States to create programs that are two-pronged: 1) they should

         move clients to work quickly and 2) they should encourage “personal responsibility.” The

         law gives States broad authority to set their own time limits on cash assistance and when

         clients must participate in work activities. 


         Clients who fail to comply with TANF program rules and requirements face sanctions,

         including cash assistance reductions ranging from $25 to lifetime ineligibility. States vary

         in how they define client sanctions and penalties, including the amounts and durations of

         sanctions. As of August 1998, 37 States impose full-family sanctions, eliminating cash

         assistance to the entire family. In general, States sanction clients for a minimum amount

         of time for each instance of noncompliance or until the client complies. Five States have

         policies that include lifetime exclusion from TANF. 


         States can decide how and when to inform clients of sanction policies and sanction

         decisions. They use several methods to resolve client disputes of sanction decisions,

         including conciliation meetings.


         Reliable and comparable State statistics on TANF client sanctions currently are not

         available. The Administration for Children and Families (ACF) required all States to

         report 1998 TANF caseload data under a temporary “emergency” reporting system. 

         However, ACF has discovered inconsistencies in how States define and report case

         closure and sanction information. At the time of this report’s publication, ACF had not



TANF — Improving Sanction Effectiveness            1                                     OEI-09-98-00290
         published 1998 data on benefit reductions and case closures resulting from sanctions and
         was working with States to standardize data reporting.

         The General Accounting Office (GAO) also is conducting a national study on client
         sanctions under TANF. Using data obtained from selected States, GAO will report
         sanction and case closure data.

         The objective of our study is to describe how sanctions are being administered at State
         and local government levels, with special emphasis on caseworker implementation. We
         purposefully selected an 8-State sample from which we visited a total of 26 TANF offices
         in both urban and rural areas. At most sites, we conducted separate focus groups with
         TANF caseworkers and clients. We also met with TANF office directors and selected
         caseworkers, who assisted us with limited case-file reviews of recently sanctioned TANF
         clients. We collected and reviewed State and county policies, publications, and notices
         from each TANF office. In each of the sample States, we interviewed staff from at least
         one client advocacy organization.

         The methods used during this study pose some distinct advantages and disadvantages for
         the scope of our findings. The purposeful sample allowed us to examine sanction
         implementation in States with widely varying attributes. We also gained thorough
         information on our respondents’ relationships with and attitudes towards sanctions. Our
         methodology precludes us, however, from commenting on the extent to which our
         findings and observations are representative nationwide. We also cannot evaluate direct
         outcomes of sanction policies, procedures, and practices on clients and the program.


FINDINGS

Caseworkers use sanctions to motivate clients, not to punish them

         Caseworkers report that they use sanctions either to motivate clients to comply with
         TANF programs or to motivate personal responsibility in general. Sanctions are
         consistent with State program objectives and serve as a tool to encourage clients to
         comply with program rules.

Sanctions are more effective when they are administered on a case-by-case basis

         Sanctions are effective for some clients, such as those earning unreported income. Long-
         term clients, frequently from inter-generational welfare families, require more extensive
         services. Encouraging compliance from this group through sanctions or other means is
         exceedingly difficult. Some TANF offices have developed simple procedures, such as
         mandatory conciliation meetings and home visits, to prevent inappropriate client sanctions.




TANF — Improving Sanction Effectiveness           2                                    OEI-09-98-00290
Sanctions are less effective when clients face substantial barriers to compliance

         Since some TANF clients face obstacles that hinder their immediate program participation,
         sanctions are not always effective. Client barriers include substance abuse, mental illness,
         low literacy, domestic violence, and lack of transportation and childcare. Some TANF
         caseworkers have inadequate resources to identify their clients’ barriers, leaving them few
         options but to sanction noncompliant clients.

Sanctions are administered more efficiently when the TANF office is a “one-stop
job center” staffed by total case managers

         Case managers who have decision-making authority and access to extensive on-site client
         services can effectively identify and remove client barriers and use sanctions more
         efficiently. Some TANF offices, however, fragment their client services among several
         providers, leading to strained client communications and inefficient sanctions. In some
         TANF offices, caseworkers are unaware of the reasons and remedies for client sanctions
         imposed by social service contractors and other third parties.


Summary

         This report is intended to provide a broad introduction to State administration of client
         sanctions under TANF. The companion reports (referenced below) provide more detailed
         information, including recommendations to improve Federal guidance.



             This is one of three OIG reports on how States administer client sanctions
             under TANF. One companion report, Temporary Assistance for Needy
             Families: Educating Clients about Sanctions (OEI-09-98-00291), describes
             how States communicate to clients the changes in sanction policies and
             procedures. The other, Temporary Assistance for Needy Families: Improving
             Client Sanction Notices (OEI-09-98-00292), reviews State methods for
             informing clients of sanction decisions via written notices.




TANF — Improving Sanction Effectiveness           3                                     OEI-09-98-00290
                          TABLE                         OF               CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                Client sanctions under TANF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                Sanction amounts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                Conciliations, appeals, and fair hearings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                Informing clients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                State sanction data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          State attributes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Purpose of sanctions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Case-specific sanctions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Identifying and addressing client barriers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Management styles and caseworker authority . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





TANF — Improving Sanction Effectiveness                              4                                                     OEI-09-98-00290
                                    INTRODUCTION

PURPOSE

         To describe how States administer client sanctions under the Temporary Assistance for
         Needy Families (TANF) Program.


BACKGROUND

         In the summer of 1996, Congress significantly overhauled the welfare system with the

         Personal Responsibility and Work Opportunity Reconciliation Act (PRWORA, 

         P.L. 104-193), ending federally-funded welfare entitlements. When President Clinton

         signed the bill into law in August 1996, Aid to Families with Dependent Children (AFDC)

         was replaced with Temporary Assistance for Needy Families (TANF), a block grant

         program that gives States more authority and flexibility to design programs that move

         clients from welfare to self-sustaining employment. Except where expressly provided for

         under PRWORA, the Federal Government may not prescribe State spending of TANF

         block grant funds.


         The TANF program grants cash assistance to needy families on a time-limited basis, but

         requires States to implement more aggressive and immediate work requirements than

         AFDC’s Job Opportunities and Basic Skills (JOBS) program. With few exceptions and

         after State-administered skills assessments, TANF requires clients1 to participate in work

         activities (e.g., subsidized or unsubsidized employment, time-limited training, or

         community service). Clients must participate in work activities after a maximum of 

         2 years on cash assistance and are limited to 5 years of federally-funded cash assistance. 

         States have authority to require work sooner and may extend aid beyond the 5-year limit,

         provided States use no Federal funds towards the individual grant.


         The TANF law includes guidance to States on work requirements and allows States to

         design their own programs that encourage clients to be responsible for their families’ well

         being. Since Federal cash assistance to needy families is time-limited, TANF clients must

         move quickly from welfare dependency to self-sufficiency. To achieve this, States may

         develop programs that encourage the formation and maintenance of two-parent families,

         strengthen child-support collection from absent parents, and ensure child immunization

         and school attendance.





         1
             For purposes of this report, a TANF “client” is the head or heads of the family receiving cash assistance.

TANF — Improving Sanction Effectiveness                     5                                           OEI-09-98-00290
         To encourage clients to follow the new program rules and requirements, TANF allows
         States broader authority to reduce or eliminate cash assistance to noncompliant clients. By
         sanctioning clients, States can link their programs that encourage “personal responsibility”
         to the cash assistance that they administer.

Client Sanctions under TANF

         The TANF law provides sanctions as one mechanism for promoting client “personal
         responsibility.” Client sanctions under the new program have a “dual intent.”2 They
         (1) motivate clients to participate in welfare-to-work programs and (2) hold clients
         accountable for their actions. According to the General Accounting Office (GAO), States
         that had strengthened their sanction provisions in an effort to shift accountability to clients
         had imposed the most client benefit-terminations nationally in 1996.3 The three States that
         shared this approach accounted for approximately 72 percent of all AFDC benefit
         terminations.

         Clients who do not follow TANF program rules and requirements face various penalties,
         including cash assistance reductions ranging from $25 to lifetime ineligibility. Although
         client sanctions existed under AFDC, States now have increased authority to define
         sanctionable offenses and specific penalties. Federal TANF law directs States to sanction
         clients for not participating in work activities and/or not cooperating with child-support
         enforcement efforts. States also may sanction clients for testing positive for controlled
         substances, not following an “Individual Responsibility Plan,” refusing to work towards
         achieving a high-school diploma or the equivalent, failing to attend school, and/or failing
         to attend required meetings or other program activities (e.g., training sessions).

         Definitions of client sanctions vary among States. While noncompliance with some
         program requirements may result in a pro rata sanction for existing clients, it may result in
         ineligibility for new clients. For example, failure by a client to appear for an orientation
         session is cause for a sanction in some States. In other States, it would cause an
         “administrative case closure” for a client at an application stage. Failure to provide proof
         of child immunizations could cause a sanction, a monetary “penalty,” or a case closure,
         depending on the eligibility status of the family’s case.

         Sanctioned clients who remain on the TANF roles for more than 3 out of the previous
         12 months encumber States’ efforts to achieve minimum mandated participation rates.
         States face block grant reductions if they fail to ensure that a minimum percentage of their
         TANF clients are engaged in work activities.



         2
          The Urban Institute, Building an Employment Focused Welfare System: Work First and Other Work-
Oriented Strategies in Five States, June, 1998, pages 48-53.

         3
         The General Accounting Office, Welfare Reform: States’ Early Experiences with Benefit Termination,
May 1997.

TANF — Improving Sanction Effectiveness               6                                        OEI-09-98-00290
Sanction Amounts and Duration

         While the TANF law mandates minimum benefit reductions for some sanctions (e.g., a 25
         percent cash assistance reduction for failure to participate in child-support enforcement
         efforts), States may set maximum benefit reduction levels ranging from the adult’s portion
         of cash assistance to a “full-family” sanction that eliminates all cash assistance to the entire
         family. States also may increase sanctions for clients who repeatedly fail to comply with
         program rules and requirements. For example, some States incrementally reduce cash
         assistance to families with each incidence of client noncompliance, sometimes leading to
         the loss of the entire cash grant. As of August 1998, 37 States administer “full-family”
         sanctions as either the first sanction or as the maximum in a series of progressive sanctions
         (see figure 1).4 Five States impose a lifetime sanction on clients who repeatedly fail to
         comply with program rules.5



    Figure 1



                                    *                           *
                                                                                         __
                                                                               *              *



                                                                    *




                                                            Maximum Amount of Sanction
                                                           50 States plus District of Columbia
                                                      Loss of entire grant (full-family sanction)     (37)
                             * Lifetime sanction      Loss of part of the grant (partial sanction)    (14)




         4
          Department of Health and Human Services, Administration for Children and Families, Office of
Planning, Research and Evaluation, TANF Program First Annual Report to Congress, August 1998.

         5
             Ibid.

TANF — Improving Sanction Effectiveness               7                                              OEI-09-98-00290
         Sanction durations also have changed under TANF. Under JOBS, Federal rules mandated

         that the first client sanction continue until the client complied, the second sanction for at

         least 3 months, and the third and subsequent sanctions for a minimum of 

         6 months. The TANF program requires that States, at a minimum, reduce the cash

         assistance pro rata for each month a client receives assistance and is not in compliance. 

         States also can set maximum sanction amounts and duration, including, as mentioned

         previously, lifetime ineligibility. Some States sanction clients indefinitely, until they

         comply.


Conciliations, Appeals, and Fair Hearings

         The TANF program affords States more flexibility to design programs that resolve client
         disputes of sanction decisions. Under JOBS, before individual benefits were interrupted,
         States were required to begin a conciliation process that (1) explained the sanction
         decision to the client and (2) attempted to resolve any client disputes of the decision. The
         conciliation focused on moving the client into compliance before a sanction was imposed.
         Under TANF, States no longer must conciliate disputes prior to sanctioning, although
         some States have left intact the conciliation processes they had used under JOBS.

         States were required under AFDC to inform clients of their right to appeal decisions
         formally and participate in fair hearings to resolve disputes over sanctions. States must
         still provide clients the option to appeal sanction decisions and must have a system of fair
         hearings to resolve appeals. State appeals and fair hearings policies may vary since TANF
         requires only that States certify that they have a fair hearing process in place and describe
         it.

Informing Clients of Program Rules and Sanction Decisions

         Under TANF, States decide how to inform clients of sanction policies, individual decisions
         to sanction, the conciliation process, how to restore benefits once sanctioned, and the
         appeals and fair hearings processes. States can, for example, conduct individual or group
         orientation sessions, provide all clients with packets of materials including policy
         information, or choose to inform clients of decisions to sanction using letters, phone calls,
         and/or home visits. For more information on TANF communications and client sanction
         notices, see the companion reports entitled Client Sanctions under Temporary Assistance
         for Needy Families: Challenges in Communication, OEI-09-98-00291, and Client
         Sanctions under Temporary Assistance for Needy Families: Improving Client Sanction
         Notices, OEI-09-98-00292.

State Sanction Data

         Reliable and comparable State statistics on TANF client sanctions currently are not
         available. The Administration for Children and Families (ACF) required all States to
         report 1998 TANF caseload data under a temporary “emergency” reporting system.
         However, ACF has discovered inconsistencies in how States define and report case


TANF — Improving Sanction Effectiveness            8                                     OEI-09-98-00290
         closure and sanction information. At the time of this report’s publication, ACF had not
         published 1998 data on benefit reductions and case closures resulting from sanctions and
         was working with States to standardize data reporting.

         The GAO also is conducting a national study on client sanctions under TANF. Using data
         obtained from selected States, GAO will report sanction and case closure data.


METHODOLOGY

         Our study focuses on State administration of client sanctions under TANF, with special
         emphasis on caseworker-level implementation. We purposefully selected an eight-State
         sample based on:

                            <         percent change in TANF recipient population,6
                            <         State policies on TANF client sanctions (e.g., full-family versus
                                      partial grant reduction),
                            <         percent of national recipient population, and
                            <         geographic diversity.

         Since our sample was purposeful, we do not project any findings or observations to any
         States other than those in the sample. We visited the following States: California,
         Florida, Idaho, Michigan, Minnesota, New York, Ohio, and Texas. In each State, we
         visited at least two TANF offices -- an urban office and a rural office. We conducted
         preinspection research in July and August 1998 in Maryland and Nevada prior to
         conducting our formal fieldwork which we concluded in November 1998.

         In total, we visited 26 TANF offices in 22 counties. In each office, we conducted a focus
         group with caseworkers. The focus groups varied in size from 2 to 15 workers. We also
         interviewed some caseworkers individually and conducted limited case-file reviews of
         recently sanctioned TANF clients. We interviewed the director of the TANF office in
         each county and clients in 19 of the 26 offices. The client interviews ranged in size from
         an individual to a group of more than 20. The clients were selected either in advance by
         the TANF office or during our visit while they were present for other business. We also
         collected and reviewed State and county policies, publications, and notices from each
         TANF office. In each State, we interviewed staff from at least one client advocacy
         organization. In total, we conducted 9 interviews with 15 advocacy organizations.




         6
          The primary factor for State selection was TANF recipient population reduction rates since TANF was
implemented. Based on the reduction rates, States were stratified into four groups, from which we chose two
States per group. While we would have preferred to use State sanction rates, reliable client sanction data for all 50
States did not exist at the time we selected the sample. We felt that caseload reduction rates were the most
reasonable proxy for sanction rates in selecting this purposeful sample.

TANF — Improving Sanction Effectiveness                  9                                            OEI-09-98-00290
            The methods used during this study pose some distinct advantages and disadvantages for
            the scope of our findings. The purposeful sample allowed us to examine sanction
            implementation in States with widely varying attributes. We also gained thorough
            information on our respondents’ relationships with and attitudes towards sanctions. Our
            methodology precludes us, however, from commenting on the extent to which our
            findings and observations are representative nationwide. We also cannot evaluate direct
            outcomes of sanction policies, procedures, and practices on clients and the program.

            The following table provides an overview of selected attributes from the States we visited.

                                             Selected State Attributes
Table 1
                            TANF recipients,                            TANF families,
                            September 19987                              January 19998
                    Percent of     Total     Percent change Total TANF caseload Total caseload per         Maximum
                     national                 since August        per office            caseworker9        sanction
                     recipient                    1996      (limited to the offices   (limited to the      amount10
State               population                                    we visited)       offices we visited)
California                 24.0 1,908,534               -26        364 to 17,484             60 to 212 Pro rata11
Florida                     3.1    246,191              -54                1,200          not available Full family
Idaho                      0.04      3,285              -85             30 to 120            40 to 120 Full family
Michigan                    3.9    308,817              -39                  200          not available 25 percent
Minnesota                   1.8    141,440              -17        150 to 15,179                    70 Pro rata
New York                   10.8    862,162              -25           92 to 2800            120 to 175 Pro rata
Ohio                        4.0    319,912              -42        188 to 11,654             60 to 286 Full family
Texas                       4.4    346,232              -47             88 to 481           200 to 225 $78/$125
            Total          52.0 4,136,573               -35          30 to 15,179            40 to 286




            7
          Department of Health and Human Services, Administration for Children and Families, 1998.
“Recipients” refers to all family members receiving cash assistance.

            8
          The TANF agencies we visited provided all figures in the “TANF families” column. “Families” refers
to the TANF case and typically includes all family members on assistance (see definition of recipients). According
to ACF, TANF families averaged 2.7 recipients in September 1998.
            9
                Includes all types of cases: TANF, Medicaid-only, food stamps-only, or any combination of the three
benefits.

            10
           Department of Health and Human Services, Administration for Children and Families, Office of
Planning, Research and Evaluation, TANF Program First Annual Report to Congress, August 1998.

            11
            As of August 1998, all counties in California, except one, impose pro rata sanctions. We visited eight
counties in California, including the one that imposes full-family sanctions.
TANF — Improving Sanction Effectiveness                       10                                          OEI-09-98-00290
             This is one of three OIG reports on how States implement client sanctions
             under TANF. One companion report, Temporary Assistance for Needy
             Families: Educating Clients about Sanctions (OEI-09-98-00291), describes
             how States communicate to clients the changes in sanction policies and
             procedures. The other, Temporary Assistance for Needy Families: Improving
             Client Sanction Notices (OEI-09-98-00292), reviews State methods for
             informing clients of sanction decisions via written notices.




TANF — Improving Sanction Effectiveness        11                                 OEI-09-98-00290
                                          FINDINGS

Caseworkers use sanctions to motivate clients, not to
punish them
         According to a consensus of caseworkers in more than two-thirds of the focus groups, the
         purpose of client sanctions is either to motivate compliance with TANF programs or to
         motivate personal responsibility. Caseworkers use sanctions as a “wake-up call” or a
         “reality check” for clients. Some mentioned that sanctions are consistent with the message
         that welfare benefits are now time-limited. In approximately 15 percent of the focus
         groups, at least one caseworker mentioned that sanctions are used to punish clients.

         Some caseworkers reported that sanctions cause clients to “feel” the consequences of their
         actions. Using this approach, caseworkers told us that sanctions can encourage client
         responsibility for one’s self and family.



Sanctions are more effective when they are administered on
a case-by-case basis
         Sanctions are very effective for specific TANF clients, according to caseworkers. For
         example, clients earning unreported income can be detected using sanctions. Clients who
         already are working and have no intention of participating in job preparedness or job
         search programs are being effectively sanctioned and in some cases have had their benefit
         levels adjusted. On the other hand, caseworkers and directors agreed that sanctions are
         least effective for the group known as “lifers” or “frequent flyers.” These are long-term
         recipients, frequently from inter-generational welfare families. They often face multiple
         barriers, compounded by the belief that public aid is a way of life and their inalienable
         right. This combination makes it very difficult for caseworkers to reach these clients
         effectively, whether through sanctions or other means.

         Some States have policies and procedures designed to prevent clients who have legitimate
         barriers to participation from being sanctioned inappropriately. To identify any hidden
         barriers, some offices mandate home visits to all sanctioned clients. Other offices require
         contact between the caseworker and client prior to sanctioning. Some offices require
         clients to appear for a mandatory conciliation meeting at the TANF office prior to a
         reduction in benefits. The conciliation meeting provides clients with the opportunity to
         explain their reasons for noncompliance and possibly avoid the reduction. For example,
         one TANF office sanctioned a client for failure to provide proof of volunteer hours
         worked. The client avoided an interruption in benefits by providing proof of volunteer
         hours during the conciliation session.


TANF — Improving Sanction Effectiveness          12                                     OEI-09-98-00290
Sanctions are less effective when clients face substantial
barriers to compliance
         The TANF population is so diverse that sanctions do not serve as motivators for all.
         Certain clients face barriers that prevent them from moving immediately from welfare to
         work. In some counties, TANF staff are not prepared to recognize or assess clients’
         problems. In others, staff lack the resources to help clients overcome barriers to
         employment.

Some clients face obstacles that hinder their immediate participation in TANF
programs

         Some TANF clients are ill prepared to immerse themselves quickly in the world of work
         due to personal and public obstacles. One of the biggest barriers to employment is lack of
         transportation. In more than one-third of the sites visited, caseworkers cited
         transportation as a problem. Lack of reliable transportation is especially acute in rural
         areas, where clients already face limited prospects for entry-level jobs. At fewer sites,
         caseworkers said that clients face barriers such as poor English language skills, lack of
         affordable housing, attitude problems, and low self-esteem. Clients are delayed further
         from participating in TANF programs when they face multiple barriers.

         Other barriers are more difficult for caseworkers to identify, but create insidious obstacles
         for clients. They include substance abuse, mental illness, low-literacy, and domestic
         violence. Identification of these barriers often rests solely with the caseworker, and failure
         to identify and address the problems may ultimately result in a sanction.

         Most sites provide child-care subsidies and referrals. Some caseworkers cited their
         office’s policy of providing referrals and subsidies for child care and would not accept
         clients’ claims that quality child care is unavailable as a “good cause” for not working. In
         these offices, clients risk sanctions for missing a required meeting or not accepting a job
         offer due to lack of child care. Clients and caseworkers agree that the lack of quality child
         care constitutes a legitimate barrier to work. However, referral services for child care
         varied among the different sites. At one site, caseworkers referred clients to a community
         nonprofit “clearing house” for child care providers willing to accept county subsidies. At
         some sites, the TANF agency simply provided clients with a list of local providers. At
         another site, caseworkers offered little guidance to clients other than to “keep looking.”
         Caseworkers and clients acknowledged that some clients are reluctant to or refuse to leave
         their children long enough to complete program requirements, although affordable and
         subsidized child care may exist. Caseworkers reported that some clients mistrust child
         care providers and refuse to place their children in day care.




TANF — Improving Sanction Effectiveness           13                                      OEI-09-98-00290
TANF caseworkers have inadequate resources to identify their clients’ barriers

         Determining if their clients face barriers to employment is a crucial responsibility of TANF
         caseworkers. The TANF law requires that States assess all clients required to participate
         in work activities. Most TANF offices used formal and/or informal processes to identify
         client barriers. The resources available to caseworkers during assessments varied among
         the offices. For example, some offices offered on-site drug and alcohol screening and
         domestic abuse counseling, while at another office, caseworkers simply administered
         written questionnaires to clients. We found one office that had no assessment program
         and placed clients in work experience programs after only a 3-week job search.

         Simply getting all of the clients to come into the office for an assessment has proven to be
         a challenge. At some sites, a client’s refusal or failure to appear for assessment is cause
         for sanction. Some offices send one or two letters requesting an appearance prior to
         imposing a sanction. Other offices require caseworkers to phone clients or make a home
         visit prior to sanctioning the family. At one site that routinely performs home visits,
         caseworkers lauded the practice as the most effective method of discovering client
         barriers.

         Large caseloads and new job responsibilities adversely affect caseworkers’ ability to
         address client barriers. Some caseworkers complained that their caseloads were too large
         to provide the individual service that TANF requires. Individual TANF caseloads ranged
         from 5 to 212 cases. When food stamps and Medicaid-only cases are added to the
         individual caseloads, the range ballooned to 40 to 286 cases. In some TANF offices, the
         shift in job duties from traditional eligibility determination to more complete case
         management has intensified the TANF casework.

         Imposing sanctions is a cumbersome process, according to caseworkers in more than half
         of our focus groups. The rigorous paperwork associated with sanctions makes them
         burdensome and time-consuming. Other problems cited include complicated and outdated
         computer systems, new sanction rules and policies, communication problems, and more
         frequent client contact. Some caseworkers were reluctant to sanction clients, claiming it
         required too much work. Other caseworkers reported that they view sanctions as
         “punishment” for themselves because of the amount of time and effort required to sanction
         a client.

         Caseworkers in several focus groups said that they lacked training about sanctions. At
         one TANF office, they had to spend a lot of time teaching themselves the new rules.
         Others reported “doing a very superficial job” with the clients. They are frustrated that
         they cannot provide in-depth services to clients. The TANF handbooks also contain
         incomplete sanction policies and procedures. Thus, caseworkers are unable to answer
         some of their clients’ questions about sanctions. According to one client, “The change
         has been a big mess. I would ask the workers questions, and the workers wouldn’t know
         the answers.” Other clients acknowledged that their caseworkers are “under a lot of
         pressure” and “overwhelmed” because of the new rules. However, some clients remained


TANF — Improving Sanction Effectiveness           14                                     OEI-09-98-00290
         indignant, as indicated by one who said, “They (County) need to educate the workers
         about the regulations. They (caseworkers) don’t know the programs.”

         While most of the TANF directors we interviewed reported that staff had received some
         training on the new sanction policies, the amount of training varied. Some caseworkers
         received twelve hours of training on the new policies; for others, training consisted only of
         memos regarding recent changes.



Sanctions are administered more efficiently when the TANF
office is a “one-stop job center” staffed by total case
managers

Extensive on-site client services and empowered case managers contribute to
efficient client sanctions

         Local TANF agencies that operate as “one-stop job centers” are better suited to meet
         clients’ needs and therefore can sanction more efficiently. These reorganized offices
         typically offer a wide array of services designed to address client barriers. They send a
         clear message to clients: Welfare is temporary, and the TANF agency is committed to
         moving clients to self-sufficiency. Caseworkers and directors in these offices were more
         likely to report that sanctions are effective.

          “Total case managers” exhibited a more in-depth understanding of their clients and
         sometimes seemed more interested in moving clients to self-sufficiency. Being responsible
         for both eligibility determination and employment services, total case managers said they
         understood the links among successful barrier identification, effective sanctions, and
         efforts to move clients to self-sufficiency. Being involved in all aspects of a client’s case
         allows caseworkers to develop a more comprehensive approach to determining the
         appropriateness of client sanctions.

         Sanctions are more effective when caseworkers have more discretion during the sanction
         process. For example, in some offices, caseworkers have the freedom to determine
         whether a sanction is appropriate on a case-by-case basis. However, other TANF offices
         have automated the sanction process and immediately impose sanctions when a client fails
         to comply with a requirement.




TANF — Improving Sanction Effectiveness           15                                     OEI-09-98-00290
Fragmented client services and strained communications impede caseworkers
from imposing efficient client sanctions

         The traditional welfare office model, which emphasizes benefit eligibility with few in-
         house services, does not allow caseworkers to use sanctions as effectively as “one-stop job
         centers.” As a result, clients are more at risk of inappropriate sanctions, even when they
         face legitimate barriers to participation. For example, in one traditional welfare office,
         clients were placed on a county work crew, cleaning public parks after a 3-week up-front
         job search. No assessments or referrals to work preparation programs (e.g., GED
         classes) were offered. A husband and wife at that office had been sanctioned for not
         completing their minimum number of hours on the work crew, despite their interests in
         other job preparation programs that qualify under the State’s work participation rules.
         Their caseworker had no knowledge of the couple’s interests or abilities.

         Offices that employ separate eligibility and employment caseworkers, sometimes miles
         away from one another, are least prepared to sanction clients efficiently. Workers in these
         arrangements often complained of the constraints the distance between the branches, both
         literal and figurative, put on effective communication.12 Clients must complete duplicate
         forms and explain things to two caseworkers, causing stress and frustration among all
         parties. Clients were frustrated by the repetitive and sometimes conflicting information
         they received from caseworkers. “Nobody gives us the same information,” complained
         one client. Clients often were confused about which caseworker to call to discuss a
         sanction or their situation in general.

         Efficient sanctioning also can be impeded by the introduction of third parties to the
         sanction process. In some counties, the TANF agency opted to contract with nonprofit or
         private firms for various client services. In general, contracted services include, but are
         not limited to: initial assessments, job search, and job preparedness. Some States give
         contractor staff authority to sanction TANF clients for not participating in their programs.
         When contractors initiate a client sanction, they tell State or county TANF staff when to
         adjust the client’s benefits. In some cases, caseworkers do not know the specific cause or
         remedy for their clients’ sanctions. Caseworkers reported strong dissatisfaction with this
         process because they often are the first to hear from a client who receives a sanction
         notice, yet they have little information or advice to offer. Their ability to help clients move
         into compliance is hindered when they cannot explain the cause and remedy for the
         sanction.

         Some total case managers reported, however, that they are overwhelmed by the shift in
         job duties and increased responsibilities. They complained that their caseloads are too
         large to do all that is necessary for their clients. Others reported that their relationships
         with clients have transformed substantially as a result of their new job responsibilities and
         not always for the better.


         12
         For more information on communication issues in TANF offices, see the companion report entitled
Temporary Assistance for Needy Families: Educating Clients about Sanctions (OEI-09-98-00291).
TANF — Improving Sanction Effectiveness              16                                        OEI-09-98-00290
                                          SUMMARY

         This report was intended to provide a broad introduction to State administration of client
         sanctions under TANF. The companion reports, Temporary Assistance for Needy
         Families: Educating Clients about Sanctions (OEI-09-98-00291) and Temporary
         eAssistance for Needy Families: Improving Client Sanction Notices (OEI-09-98-00292)
         provide more detailed information, including recommendations to improve Federal
         guidance.

         .




TANF — Improving Sanction Effectiveness          17                                    OEI-09-98-00290
